                             AUDIT REPORT                                    IG-03-018



Report Recipients:

SSC/AA00/Director,           WEAKNESSES IN STENNIS SPACE CENTER’S
  John C. Stennis Space               PROCUREMENT OF
  Center
                                   HIGH-PRESSURE VALVES

                                                   June 27, 2003


 cc:
 H/Assistant Administrator
    for Procurement
 M/Associate
    Administrator for
    Space Flight
 Q/Associate
    Administrator for
    Safety and Mission
    Assurance
 JM/Director,
    Management
    Assessment Division
   JM/Team Lead (Audit)




                              OFFICE OF INSPECTOR GENERAL
 National Aeronautics and    Released by: __[Alan J. Lamoreaux DAIGA] for_____
 Space Administration
                             David M. Cushing, Assistant Inspector General for Auditing
IG-03-018                                                          June 27, 2003
 A-02-020-00

                     Weaknesses in Stennis Space Center’s
                              Procurement of
                           High-Pressure Valves

We found serious weaknesses with Stennis Space Center’s (Stennis) management of a
$2.5 million contract with Dresser Equipment Group (Dresser) for 26 high-pressure
valves. These valves are used to control flammable and explosive fuels at the Center’s
component test facility. Stennis’ ineffective contract management resulted in late
deliveries, increased costs, and defective valves that jeopardized test schedules for
critical test articles, such as engines for the joint NASA/Air Force Integrated Powerhead
Demonstrator project and NASA’s 2nd Generation Reusable Launch Vehicle Program.

Stennis mismanaged this contract by allowing Stennis engineers to direct design changes
to the valve specifications without Contracting Officer approval and by not requiring
Dresser to submit a subcontractor plan. Additionally, Stennis did not perform required
technical, safety, or quality assurance reviews. Consequently, Dresser delivered only 1
valve on time and 24 valves from 4 to 26 months late. One other valve has not yet been
delivered. As of January 2003, Stennis has incurred about $229,000 in additional costs to
rework 12 valves that were accepted with known defects. Propulsion Test Directorate
(PTD) personnel believed accepting and reworking the defective valves would be faster
and cheaper than allowing Dresser to correct the problems. Ultimately, engine testing
was delayed 2-1/2 months for the Integrated Powerhead Demonstrator project and 1
month for the 2nd Generation Reusable Launch Vehicle Program engine.

We have indications that similar problems could occur with Stennis’ five other pressure
system contracts (totaling $6.2 million). Management needs to ensure that each of its
pressure vessel and pressurized systems contracts are effectively managed to minimize
potential safety hazards at the Center.

High-Pressure Valve Acquisition and Management Weaknesses

Unauthorized Design Changes Resulted in Additional Costs. In May 2002, the
Contracting Officer’s Technical Representative (COTR) notified the Contracting Officer
that engineering personnel inappropriately authorized Dresser to make several changes to
liquid oxygen valves that were not part of the original contract specifications. The
COTR estimated that the changes would cost $85,850. For example, after collaborating
with Stennis engineers, Dresser machined concentric grooves into the valve bodies to
solve fluid delivery problems during low-flow and low-pressure situations. Stennis
subsequently found that the grooves increased fluid ignition hazards in liquid oxygen
systems during high-flow and high-pressure situations. The design changes contributed
to delays that ultimately led Stennis to accept three valves that were incomplete or leaked
excessively.

The Center accepted the three valves in an attempt to meet test schedules for the joint
NASA/Air Force Integrated Powerhead Demonstrator project. Stennis then directed its
facility support contractor to rework the valves, to include removing the concentric
grooves, at NASA’s expense. Even after being reworked, one valve continued to leak
flammable liquid oxygen and was undergoing its third repair at the time of our field
work.

Subcontractor Performance Resulted in Defective Valves. Dresser initially advised
the Contracting Officer that it did not plan to use subcontractors except for the valve
actuators and hub ends and that it had sufficient in-house capability to perform all other
manufacturing work on the valves. Thus, the Contracting Officer exempted Dresser from
submitting a subcontracting plan. Subsequently, Dresser used subcontractors for
manufacturing work not related to the valve actuators and hub ends. However, the
Contracting Officer never required Dresser to submit a subcontracting plan.

Dresser’s use of additional subcontractors resulted in defective welding, improper
attachment of valve vacuum jackets, and valve contamination. For example, in June
2000, Dresser notified the COTR that it planned to use a subcontractor to weld valve
bodies for 6-inch and larger valves. In January 2001, Dresser notified the COTR that
upper and lower valve body sections welded by that subcontractor did not meet
specifications. In May 2001, Dresser notified PTD personnel, the Contracting Officer,
and the COTR that it had been negotiating with a subcontractor regarding cost overruns
on vacuum jackets. Appendix D, Figure 2 shows a 10-inch liquid oxygen valve being
disassembled at the cleaning subcontractor’s facility after tests indicated the valve was
contaminated. Dresser used these subcontractors despite the early assurances to the
Contracting Officer that no additional subcontracting opportunities existed. Had the
Contracting Officer required a subcontracting plan, Stennis may have performed the
oversight needed to ensure quality and timeliness and avoid increased costs.

Technical Specification Reviews and Approvals Not Performed. The Center’s
pressure systems experts and Safety and Mission Assurance officials did not review or
approve the contract’s technical specifications. NASA and Stennis guidance require such
reviews to ensure the structural integrity of pressure system components and to minimize
potential mishaps. Instead, PTD personnel developed, reviewed, and approved the
specifications and Dresser’s valve designs. Further, PTD personnel indicated that
additional technical or safety specification reviews were unnecessary and would delay
the award and manufacturing process. Completing the reviews may have identified and
addressed problems with valve designs. For example, Stennis may have identified the
potential hazards from using Monel versus stainless steel valve stem materials and an
unacceptable method to attach vacuum jackets. Performing required reviews for future


                                             2
technical specifications may save Stennis time and money if the reviews identify design
problems prior to the manufacture of pressure system components.

Safety and Quality Assurance Oversight Not Performed. The Contracting Officer did
not require surveillance of Dresser’s performance as prescribed by the Federal
Acquisition Regulation. Specifically, Stennis did not perform quality oversight or
inspections of the valves during manufacture or prior to acceptance. Stennis engineers
visited Dresser’s manufacturing plant and two of Dresser’s subcontractors, but did not
inform the Contracting Officer or quality and safety personnel of the manufacturing
problems observed or the resolutions agreed to with Dresser and its subcontractors.
Consequently, the Contracting Officer had no basis to support adverse action against
Dresser when it did not meet contract requirements.

Recommendations, Management’s Response, and Evaluation of Management’s
Response

To correct management and acquisition control weaknesses, ensure effective
management and surveillance of pressure vessel and pressurized systems contracts,
and minimize potential safety hazards at Stennis, the Center Director should:

   1. Establish a technical focal point to ensure existing and future pressure
      system contracts include specifications that are reviewed and approved by
      appropriate quality, safety, and technical experts prior to contract award.

Management’s Response. Concur. Stennis has both a Pressure Vessel/Systems
Committee and a Components Working Group that is developing action plans to address
how these issues will be handled in the future. In addition, the Safety and Mission
Assurance Office now reviews procurements in accordance with “S&MA [Safety and
Mission Assurance] Procurement Assurance Review Policy” and Stennis Purchasing
Guidance. The complete text of management’s response is in Appendix H.

Evaluation of Management’s Response. Management’s planned actions are responsive
to the intent of the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.

   2. Direct the PTD to coordinate with Contracting Officers regarding all
      changes to contract terms and conditions.

Management’s Response. Concur. The Procurement Officer, in conjunction with the
Propulsion Test Directorate, has initiated a series of “Procurement Roadshows” at
Stennis to emphasize the appropriate procedures for effecting contractual changes. In
addition, contractors must acknowledge that only the Contracting Officer can approve
changes to contract terms and conditions through the issuance of a formal contract
modification.



                                           3
Finally, the Director, Propulsion Test Directorate will formally emphasize the importance
of processing required changes through the Stennis Acquisition Management Office (see
Appendix H).

Evaluation of Management’s Response. The actions taken by management are
responsive to the recommendation. We consider the actions sufficient to disposition the
recommendation, which will be closed for reporting purposes.

   3. Consider Dresser’s performance on this contract before awarding the
   company any future contracts.

Management’s Response. Concur. Documented evidence of past performance
problems is included in contract records and will be used prior to the award of future
contract actions. A final past performance rating will be input into the Past Performance
Database System. The contractor has been notified that Stennis will conduct a meeting to
address “lessons learned” associated with the conduct and performance of the contractor
upon contract completion (see Appendix H).

Evaluation of Management’s Response. Management’s planned actions are responsive
to the intent of the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.

Stennis’ General Comments on Findings. Stennis is highly conscious of the potential
effects of defective hardware on safety, schedule, and cost on test project activities. To
preclude safety issues, Stennis has long-standing institutionalized, rigorous procedures
and processes for safe test system design, safe test operations, independent safety
reviews, and comprehensive test readiness reviews. These procedures are formalized in
International Organization for Standardization (ISO) 9000 certified work instructions.
Stennis is confident that its end-to-end processes will continue to realize successful
propulsion test work, as they have in the past.

Evaluation of Stennis’ General Comments. We reviewed a number of Stennis’ ISO
9000 procedures pertaining to acquisition and support for the Center’s propulsion test
mission. These procedures should ensure that pressure system components are safe and
reliable for use in propulsion testing. However, Stennis did not apply many of the
procedures to the Dresser acquisition. For example, Stennis did not apply System Level
Procedure 13, “Control of Nonconforming Product,” and System Level Procedure 1280-
0010, “Inspection and Testing,” until Center personnel had accepted the valves, noted
serious manufacturing defects, and began rework efforts. After our audit, Propulsion
Test Directorate personnel informed us that they are applying the ISO 9000 procedures to
ongoing pressure systems (valve) acquisitions to avoid the problems encountered on the
Dresser contract.




                                             4
Appendices

Details related to the disposition and closure of the recommendations are in Appendix A.
Among the other appendices, note that Appendix D shows examples of high-pressure
valves; Appendix E summarizes the NASA and Stennis guidance for acquisition of
pressure vessels and pressurized systems; Appendix F contains the status of the valve
deliveries; and Appendix G summarizes the valve contract modifications.




                                           5
List of Appendices

Appendix A – Status of Recommendations

Appendix B – Background

Appendix C – Objectives, Scope, and Methodology

Appendix D – Examples of High-Pressure Valves and Components

Appendix E – NASA and Stennis Guidance for Pressure Vessel
             and Pressurized Systems Acquisitions

Appendix F – Status of Valve Deliveries

Appendix G – Summary of Contract Modifications

Appendix H – Management’s Response

Appendix I – Report Distribution




Acronyms Used in the Report

COTR        Contracting Officer’s Technical Representative
ISO         International Organization for Standardization
PTD         Propulsion Test Directorate
PV/S        Pressure Vessel and Pressurized Systems




                                        6
                Appendix A. Status of Recommendations


Recommendation No.    Resolved      Unresolved   Open/ECD*    Closed
       1                 X                        8/15/2003
       2                 X                                      X
       3                 X                        8/15/2003

* ECD – Estimated Completion Date




                                        7
                            Appendix B. Background

In August 1999, Stennis Space Center (Stennis) awarded contract NAS13-99035 to
Dresser Equipment Group to acquire high-pressure valves for use at its component test
facility. The valves are critical components of pressure systems that control liquid
hydrogen, liquid oxygen, gaseous hydrogen, and gaseous nitrogen used in testing rocket
engines at Stennis. The combination of system pressure, volume, and volatile fluids can
create potential safety hazards, such as spills, explosions, flying debris, fires, and
asphyxiation that can harm personnel and the surrounding environment. The primary
NASA customer for the valves was the Stennis Propulsion Test Directorate (PTD). The
PTD acquired the valves for a joint Air Force/NASA experimental engine project (the
Integrated Powerhead Demonstrator) and the 2nd Generation Reusable Launch Vehicle
Program.

The PTD’s mission is to provide safe, efficient, and responsive rocket propulsion test
services to NASA, other Government agencies, and the commercial propulsion
development community. These services include testing and flight certifying rocket
propulsion systems for the Space Shuttle and future generation space vehicles at the
Center’s three major test complexes. The PTD is responsible for managing Stennis’
pressurized vessel and pressurized systems program assets. The PTD relies on a team
consisting of a Pressure Systems Manager, a Pressure Systems Committee, and other
experts to ensure proper management, control, and oversight of the pressurized systems
program.




                                           8
              Appendix C. Objectives, Scope, and Methodology

Objectives

The overall audit objective was to evaluate Stennis Space Center (Stennis) controls over
pressure vessels and pressurized systems (PV/S). The specific objective related to this
report was to assess the Center’s controls for PV/S acquisitions. The remaining
objectives related to the audit were to evaluate the:

        •   controls for certifying and maintaining PV/S and
        •   oversight of contractor safety programs for PV/S.

We will address those objectives in a subsequent report.

Scope and Methodology

We reviewed Federal, NASA, and Stennis regulations, policies, and guidance related to
the acquisition of PV/S. We interviewed representatives from the Propulsion Test
Directorate, Center Operations, Procurement Directorate, Safety and Mission Assurance
Office, Defense Contract Management Agency, and the Stennis facilities operations
support contractor. We reviewed contract NAS13-99035 and related files and
correspondence. We did not rely on computer-processed data during the audit.

Management Controls Reviewed

We identified and assessed the controls for reviewing, approving, acquiring, and
accepting PV/S. The controls are outlined in the Federal Acquisition Regulation, the
NASA Safety Policy and Requirements Document (replaced by the NASA Safety
Manual1), the NASA Safety Policy for PV/S, and the Stennis Guide for Certifying PV/S.

We considered the lack of oversight and the noncompliance with procurement and safety
requirements for the valve acquisition to be management control weaknesses. By
ensuring that PV/S acquisitions receive required review and approval, all changes to
contract specifications are approved by the Contracting Officer, and appropriate contract
surveillance and quality assurance is assigned to future contracts, Stennis can mitigate
many of the problems we found with this acquisition.

Audit Field Work

We performed audit field work at Stennis from March 2002 through February 2003 in
accordance with generally accepted Government auditing standards.



1
 The Agency issued NASA Procedures and Guidelines 8715.3, the NASA Safety Manual, on January 24,
2000.

                                                9
     Appendix D. Examples of High-Pressure Valves and Components

 Figures 1 and 2 show two of the valves Stennis procured and their major components.




                                                                            Valve
                                                                           Actuator
Valve Stem
   Plug


Valve Body




                         Figure 1. A 3-inch valve installed at the
                         Stennis component test facility.




                                                                             Valve Bonnet




                                                                             Valve Body


                                                                               Valve
                                                                             Stem Plug




                        Figure 2. A 10-inch liquid oxygen valve being
                        disassembled after tests indicated the valve was
                        contaminated. The photograph shows the
                        removal of the valve stem plug from the valve
                        body.

                                              10
      Appendix E. NASA and Stennis Guidance for Pressure Vessel and
                    Pressurized Systems Acquisitions

The Federal Acquisition Regulation establishes policy and procedures for acquisitions by
NASA and other executive agencies. Additionally, NASA and Stennis Space Center
(Stennis) have policies for the acquisition of pressure vessels and pressurized systems
(PV/S). NASA Handbook 1700.1, “NASA Safety Policy and Requirements Document,”
June 1, 1993, and NASA Policy Directive 8710.5, “NASA Safety Policy for PV/S,”
March 17, 1998, establish the safety requirements for PV/S acquisitions.

Federal Acquisition Regulation

Part 46 of the Federal Acquisition Regulation establishes the contract quality
requirements for Government contracts. Specifically, Section 46.105 establishes quality
criteria for contractors and subcontractors, while 46.203 provides criteria for determining
the extent of required contractor inspections. The technical description, complexity, and
criticality of the purchased item determine which inspections are required. Section
46.203 of the Regulation defines complexity and criticality as follows:

       •   Complexity. Complex items have quality characteristics, not wholly visible in the
           end item, for which contractual conformance must be established progressively
           through precise measurements, tests, and controls applied during purchase,
           manufacture, performance, assembly, and functional operation either as an
           individual item or in conjunction with other items.

       •   Criticality. A critical application of an item is one in which the failure of the item
           could injure personnel or jeopardize a vital agency mission.

The high-pressure valves that Stennis ordered were complex and critical.

NASA Guidance

NASA Handbook 1700.1, “NASA Safety Policy and Requirements Document.” The
Handbook preceded the NASA Safety Manual2 and established safety requirements for
support operations contracts. The Handbook further established roles and responsibilities
for program and project managers, Contracting Officers, and safety and mission
assurance personnel.

       •   Program and project officials were required to (1) review procurement
           documentation for safety requirements, (2) coordinate with the cognizant safety




2
    See footnote 1.

                                                 11
Appendix E

       officials to determine and approve safety requirements and objectives under
       which
       the contract would be performed, and (3) perform required checks and inspections
       of contractor compliance.

   •   Contracting Officers were required to consider using contract administration
       services personnel to monitor contractor safety operations.

   •   Safety and mission assurance officials were required to (1) conduct safety
       program reviews of the contractor’s operation or product; (2) ensure safety
       participation in critical reviews, such as hardware design reviews and design
       certification reviews; and (3) coordinate safety surveillance requirements of
       contractor operations with the Defense Contract Management Command (when
       delegated).

NASA Safety Policy for PV/S. The Safety Policy for PV/S provides the requirements
for ensuring the structural integrity of PV/S and minimizing potential mishaps. The
policy outlines PV/S-related responsibilities for Pressure Systems Committees and
Pressure Systems Managers.

   •   Pressure Systems Committees, when required by management, may be appointed
       by Center Directors to, among other assignments, conduct reviews, provide
       guidance, and recommend requirements. The Committee shall be cognizant of
       PV/S design, fabrication, repair, and construction activities.

   •   The Pressure Systems Manager is responsible for approving PV/S designs and
       providing technical expertise for all matters involving PV/S.

Stennis Guidance

The Stennis Guide for Certifying PV/S, February 2002, identifies the following
responsibilities.

   •   The Pressure Systems Manager is responsible for procurement of new pressure
       vessels and approval of all new designs of pressure vessels including designs
       performed by the Pressure Systems Design Engineer.

   •   The Pressure Systems Design Engineer is responsible for designing or approving
       the design of new PV/S and determining that all PV/S are of the correct design for
       operating service.




                                           12
                                                                        Appendix E

•   The Pressure Systems Material Engineer is responsible for assisting the Pressure
    Systems Manager in reviewing procurement, design, and modification of pressure
    vessels.

•   The Pressure Systems Committee’s responsibilities include assisting the Pressure
    Systems Manager in reviewing procurement, design, and modification of pressure
    vessels.




                                       13
                  Appendix F. Status of Valve Deliveries


                 Original
                Scheduled       Date
   Valve         Delivery      Received             Valve Status as of January 24, 2003
  Number          Date
Base Contract
 (19 valves)
PCV-10G13-GH     8/12/00         9/30/02        Dresser delivered valve to Stennis 25 months late.
PCV-10G26-GN     8/12/00    Installed at test   Dresser delivered the valve 17 months late, and it did
                            stand E-2 of the    not require Stennis rework.
                            Component Test
                            Facility 1/15/02
PCV-10G27-GN     8/12/00         6/24/02        Dresser delivered the valve 22 months late, and it did
                                                not require Stennis rework.
VPV-10F11-LH     8/12/00        12/14/01        Dresser delivered the valve 4 months late, and it was
                                                1 of 12 requiring Stennis rework.
VPV-10F12-LH     8/12/00         9/10/01        Dresser delivered the valve 12 months late, and it
                                                was 1 of 12 requiring Stennis rework.
VPV-10F13-LH     8/12/00         9/10/01        Dresser delivered the valve 12 months late, and it
                                                was 1 of 12 requiring Stennis rework.
VPV-10F14-LO     8/12/00         3/29/01        Dresser delivered the valve 7 months late, and it was
                                                1 of 12 requiring Stennis rework.
VPV-10F15-LO     8/12/00         3/28/01        Dresser delivered the valve 7 months late, and it did
                                                not require Stennis rework.
VPV-10F17-LO     8/12/00         5/17/02        Dresser delivered the valve 20 months late, and it
                                                was 1 of 12 requiring Stennis rework.
VPV-10F18-LO     8/12/00      Returned to       Dresser delivered the valve 17 months late, and it
                            Stennis 1/31/02     was 1 of 12 requiring Stennis rework. The valve is
                                                undergoing a third rework at Stennis.
VPV-10F20-LO     8/12/00         6/18/01        Dresser delivered the valve 10 months late, and it did
                                                not require Stennis rework.
VPV-10F21-LH     8/12/00        10/18/02        Dresser delivered the valve 26 months late.
VPV-10F22-LO     8/12/00         6/12/01        Dresser delivered the valve 10 months late, and it
                                                was 1 of 12 requiring Stennis rework.
VPV-10F23-LH     8/12/00         2/17/02        Dresser delivered the valve 17 months late, and it did
                                                not require Stennis rework.
VPV-10F24-LH     8/12/00         9/10/01        Dresser delivered the valve 12 months late, and it did
                                                not require Stennis rework.
VPV-10F25-LH     8/12/00         9/10/01        Dresser delivered the valve 12 months late, and it
                                                was 1 of 12 requiring Stennis rework.
VPV-10F26-LO     8/12/00         6/12/01        Dresser delivered the valve 10 months late, and it
                                                was 1 of 12 requiring Stennis rework.
VPV-10F28-LH     8/12/00         2/17/02        Dresser delivered the valve 17 months late, and it
                                                was 1 of 12 requiring Stennis rework.




                                           14
                                                                                Appendix F

                Original
               Scheduled    Date
   Valve        Delivery   Received              Valve Status as of January 24, 2003
  Number         Date
VPV-10F29-LO    8/12/00      2/17/02         Dresser delivered the valve 17 months late, and it
                                             was 1 of 12 requiring Stennis rework.
 Option One
  (4 valves)
VPV-10F16-LO    8/12/00      3/28/01         Dresser delivered the valve 7 months late, and it did
                                             not require Stennis rework.
VPV-10F19-LH    8/26/01      3/20/02         Dresser delivered the valve 7 months late, and it did
                                             not require Stennis rework.
VPV-10F27-LO    8/26/01      6/10/02         Dresser delivered the valve 10 months late, and it
                                             was 1 of 12 requiring Stennis rework.
VPV-10F30-LO    8/26/01      8/23/01         Dresser delivered the valve on time, and it did not
                                             require Stennis rework.
 Option Two
  (3 valves)
VPV-10F31-LO    8/26/01    Not Received      Dresser is in the process of cleaning and testing the
                                             valve.
VPV-10F32-LO    12/4/01      10/24/01        Dresser delivered the valve 10 months late, and it did
                                             not require Stennis rework.
VPV-10F33-LO    8/26/01      3/28/01         Dresser delivered the valve 5 months late, and it did
                                             not require Stennis rework.




                                        15
          Appendix G. Summary of Contract Modifications
Number    Date          Value                             Summary
  1      12/8/99    +$491,770   The modification provided incremental funding of
                                $491,770 and fully funded the contract (total of
                                $1,726,770).
  2      12/20/99     -$5,329   The modification decreased the price of a 2-inch liquid
                                oxygen valve shown under Option 1 by $5,329. The
                                modification had no impact on the funded value of the
                                contract.
  3       1/7/00     +$54,603   Stennis purchased the 2-inch liquid oxygen valve identified
                                in modification 2 (Option 1) for $54,603, increasing the
                                total contract price to $1,781,373.
  4      2/16/00    +$670,065   Stennis exercised Option 2 of the contract and purchased an
                                additional six valves, bringing the total contract value to
                                $2,451,438. Delivery of five of the valves was scheduled
                                for 190 days after the receipt of order, and delivery of the
                                sixth valve was scheduled for 270 days after receipt of
                                order.
  5       9/5/00          $0    The modification extended delivery dates for valves
                                ordered on the original award and Option 1 to November
                                30, 2000. The modification extended the delivery date for
                                items purchased under Option 2 to January 31, 2001. The
                                modification stated that the extensions were “ . . . due to
                                material changes in the Contract Specifications.”
  6      12/13/00         $0    The modification changed the valve stem/plug material
                                from Monel K500 to stainless steel for 6-, 8-, and 10-inch
                                valves and required the installation of a specific actuator in
                                the additional valves purchased under Options 1 and 2.
  7      1/31/01     +$74,354   The modification changed two 3-inch valves from “fail in
                                place” to “fail closed” and changed the valve stem material
                                on liquid hydrogen and liquid oxygen valves from Monel
                                K500 to 316L stainless steel. The modification also
                                increased the total contract price to $2,525,792 and
                                extended the delivery date for the valves to May 23, 2001.
  8      5/22/01          $0    The modification extended the delivery dates of various
                                valves. The dates ranged from June 30 to
                                October 31, 2001.
  9      6/12/01      +$8,105   The modification required Dresser to provide a stainless
                                steel close-out ring on the vacuum jacket and to provide a
                                vacuum seal on nine of the valves. The modification also
                                extended the delivery date for a 2-inch and 1-inch valve to
                                July 27, 2001, and increased the contract price to
                                $2,533,897.
  10     10/19/01         $0    The modification deleted the cryogenic seat leakage test in
                                exchange for Dresser’s performing ambient testing on each
                                valve and formalizing and providing the finite element
                                analyses to NASA.
  11     12/10/01         $0    The modification extended the delivery date for nine valves
                                to February 8, 2002.




                                     16
                                                                             Appendix G

Number     Date        Value                                Summary
  12     12/18/01         $0    The modification allowed for valves of differing physical
                                configurations (the contract required identical valves) as
                                long as they met technical specifications.
  13      1/25/02         $0    The modification provided for acceptance of a 6-inch valve
                                that did not comply with contract specifications. The valve,
                                shipped at Dresser’s expense to Stennis, was used for final
                                piping installation and initial liquid nitrogen cold flows for
                                8 weeks at test stand E-1 of the component test facility.
                                The valve was then to be returned to Dresser, at its
                                expense, to be reworked and to undergo final testing. Once
                                the valve complied with contract specifications, it was to be
                                reshipped to Stennis, and Stennis was to pay the original
                                invoice price for the valve. The original warranty period
                                was not to go into effect until Stennis received a valve that
                                complied with contract specifications. The modification
                                also extended the contract until May 10, 2002.
  14      2/15/02     -$9,966   The modification specified credit terms and conditions for
                                NASA’s acceptance of three 6-inch valves for Stennis’ on-
                                site repair. Dresser was to ship the valves to Stennis in an
                                “as is” condition for repair and cleaning. Although the
                                valves did not meet seat leakage standards and were not
                                cleanliness certified, NASA accepted them with the
                                stipulation that Dresser provide, at no cost to NASA,
                                critical dimension drawings showing tolerances and detail
                                of critical parts, loan a stud tensioning device and assembly
                                fixture as needed, provide new soft goods, and provide a
                                serviceman and engineer to assist in reassembling the
                                valves. One of the valves was not shipped back to the
                                contractor for rework as stated in modification 13, but
                                remained at Stennis for rework in exchange for a credit of
                                $3,322 per valve ($9,966) total. The contract value was
                                reduced to $2,523,931.
  15     2/27/02/02   -$5,256   The modification provided for shipment, at Dresser’s
                                expense, of a 3-inch liquid hydrogen valve to Stennis in an
                                “as is” condition for repair and cleaning. The vacuum
                                jacket and cleaning requirements for the valve were
                                waived. The modification also provided for Dresser to ship
                                an additional set of soft goods for use in reassembly and
                                issue a credit invoice to NASA for $5,256. The contract
                                value was reduced to $2,518,675.




                                     17
Appendix G

Number        Date       Value                            Summary
  16         5/10/02   -$5,811   The modification provided credit terms for accepting a
                                 10-inch liquid oxygen valve for Stennis’ on-site repair and
                                 extended the period of performance. Dresser, at its
                                 expense, was to ship the valve to Stennis in an “as is”
                                 condition for repair and cleaning. The valve body,
                                 actuator, stem plug, and soft goods were then to be shipped
                                 to Stennis as soon as possible, but not later than
                                 May 15, 2002. Dresser was also to loan a test plug for
                                 proof testing. The period of the contract was extended to
                                 July 26, 2002, and Dresser was to issue NASA a credit for
                                 $5,811 and provide tools valued at $42,404. The contract
                                 value was reduced to $2,512,864.




                                     18
Appendix H. Management’s Response




               19
Appendix H




             20
     Appendix H




21
Appendix H




             22
                      Appendix I. Report Distribution

National Aeronautics and Space Administration Headquarters

A/Administrator
ADI/Associate Deputy Administrator for Institutions and Asset Management
ADT/Associate Deputy Administrator for Technical Programs
AA/Chief of Staff
AB/Associate Deputy Administrator
B/Deputy Chief Financial Officer for Financial Management
B/Deputy Chief Financial Officer for Resources (Comptroller)
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
L/Assistant Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
Q/Associate Administrator for Safety and Mission Assurance

NASA Advisory Officials

Chair, NASA Aerospace Safety Advisory Panel

NASA Centers

ARC/D/Director, Ames Research Center
DFRC/X/Director, Dryden Flight Research Center
GRC/0100/Director, John. H. Glenn Research Center at Lewis Field
GSFC/100/Director, Goddard Space Flight Center
JPL/Director, NASA Management Office
JSC/AA/Director, Johnson Space Center
KSC/AA/Director, John F. Kennedy Space Center
LaRC/106/Acting Director, Langley Research Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
SSC/AA00/Director, John C. Stennis Space Center




                                         23
Appendix H

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
 and the Census
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         24
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Auditing; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title: Weaknesses in Stennis Space Center’s Procurement of High Pressure
              Valves

Report Number:                                         Report Date:


CIRCLE THE APPROPRIATE RATING FOR THE FOLLOWING                          STATEMENTS.


                                                      Strongly                                 Strongly
                                                      Agree      Agree    Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically       5         4        3          2           1      N/A
     organized.
2.   The report was concise and to the point.            5         4        3          2          1       N/A
3.   We effectively communicated the audit               5         4        3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4        3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

#     Excellent         #    Fair
#     Very Good         #    Poor
#     Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 #    Media
   #   NASA Employee                       #    Public Interest
   #   Private Citizen                     #    Other:
   #   Government:            Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                 No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

       Assistant Inspector General for Auditing
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.



Major Contributors to This Report

Kevin J. Carson, Director, Office of Audits (OA) Safety and Security

Sandy Massey, Associate Director, OA Safety and Security

Karl Allen, Project Manager, OA Financial Management

Ron Yarbrough, OA Safety and Occupational Health Manager

Lamar Brickhouse, Auditor (Team Leader)

Gene Lindley, Auditor
